»'■

CERTIFICATE OF SERVICE
No
In the

Supreme Court of the United States
Barbara Andersen
Petitioner
v.
Village of Glenview, Rick Gimbel
And Jacob Popkov
Respondents
Barbara Andersen hereby certifies that she served her Writ of Certiorari on
the following via U.S. Mail, First Class, postage prepaid:
Counsel for Village of Glenview and Jacob Popkov
James Sotos
550 E Devon Ave, Ste 150
Itasca, IL 60143
(630) 735-3300
Counsel for Rick Gimbel
2 N LA Salle St # 1100
Chicago, IL 60602-3791

'™ryvMi
^

(312) 263-6635.
All parties required to be served have been served.
Barbara Andersen hereby certifies that she filed her Writ of Certiorari via
U.S. Mail, Priority Mail, postage prepaid as follows:
Supreme Court of the United States
Attn: Clerk’s Office
1 First Street, NE
Washington, DC 20543

RECEIVED
DEC 3 0 2020
iupl?EMFFrffuRTLnqK

I declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct.
Executed on December 17, 2020

Barbara Andersen
1007 Longmeadow Lane
Western Springs, IL 60558
708-805-1123
(Filed remotely from 8860 Dawn Haven Road, Northport, Michigan 49670)

